Washington, D.C. 20530

March 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Club One Casino, Inc., et al. v. David Bernhardt, Secretary of the Interior, et al,
S.Ct. No. 20-846
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 18, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on March 11, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-0846
CLUB ONE CASINO, INC., ET AL.
DAVID BERNHARDT, SEC. OF THE INTERIOR, ET
AL.

ROBERT AXEL OLSON
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 WILSHIRE BOULEVARD
12TH FLOOR
LOS ANGELES, CA 90036
310-859-7811
ROLSON@GMSR.COM

